               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Using U.S. Postal Service-Specific
      Assumptions for Calculating the
       Federal Employees Retirement
              System Liability

         Management Advisory Report




                                         September 27, 2013

Report Number FT-MA-13-024
                                                                     September 27, 2013

                                                 Using U.S. Postal Service-Specific
                                            Assumptions for Calculating the Federal
                                             Employees Retirement System Liability

                                                         Report Number FT-MA-13-024



BACKGROUND:
The Federal Employees Retirement             WHAT THE OIG FOUND:
System (FERS) is a pension program           Postal Service employees have
offered to employees of the U.S. Postal      distinguishing employee characteristics
Service and federal agencies. The            (salary growth, termination, retirement,
Postal Service and its employees             disability, death, and life expectancy)
contribute to the pension program for        that the OPM does not take into
future benefits. The U.S. Office of          consideration when applying actuarial
Personnel Management (OPM)                   assumptions. These characteristics, as
administers the FERS.                        well as other non-employee factors,
                                             impact the FERS liability calculation.
As of September 30, 2012, the OPM            Currently, the OPM uses the same
projected a $3 billion FERS surplus. The     actuarial assumptions for Postal Service
U.S. Postal Service Office of Inspector      and federal employees without regard to
General previously analyzed Postal           the characteristic differences between
Service funding levels and compared          them.
them to federal and state governments,
the military, and corporations. Those        Using Postal Service-specific actuarial
comparisons showed the Postal Service        assumptions, the liability would be
funded its retirement liabilities at a       reduced by an additional $9.5 billion,
substantially higher level than the other    from $90.5 billion to $81 billion, resulting
organizations. Additionally, we reported     in a total surplus of $12.5 billion.
on the causes of the FERS surplus.           Accordingly, the Postal Service could
Using the research results, we analyzed      achieve a more accurate liability
how the causes contributed to the            estimate that more closely aligns with
surplus and impacted the Postal Service      future benefits.
liability.
                                             WHAT THE OIG RECOMMENDED:
Our objective was to review the              We recommended management
assumptions used for the Postal              coordinate with the OPM to modify the
Service’s FERS liability calculation and     future FERS liability calculation using
determine what effect those                  actuarial assumptions specific to the
assumptions may have on the FERS             Postal Service and, based on the
liability calculation estimate.              results, take action as appropriate.

                                             Link to review the entire report
September 27, 2013

MEMORANDUM FOR:            JOSEPH A. CORBETT
                           CHIEF FINANCIAL OFFICER AND
                           EXECUTIVE VICE PRESIDENT




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Management Advisory Report – Using U.S.
                           Postal Service-Specific Assumptions for Calculating
                           the Federal Employees Retirement System Liability
                           (Report Number FT-MA-13-024)

This report presents the results of our review of Using U.S. Postal Service-Specific
Assumptions for Calculating the Federal Employees Retirement System Liability
(Project Number 13BG015FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice M. Millett, director,
Finance, or me at 703-248-2100.

Attachments

cc: Corporate Audit and Response Management
Using U.S. Postal Service-Specific Assumptions for Calculating                                                                 FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    TABLE OF CONTENTS



Introduction.................................................................................................................................... 1

Conclusion ..................................................................................................................................... 1

Postal Service-Specific Assumptions........................................................................................ 2

   Current Legislation ................................................................................................................... 4

Recommendation ......................................................................................................................... 5

Management’s Comments .......................................................................................................... 5

Evaluation of Management’s Comments.................................................................................. 5

Appendix A: Additional Information ........................................................................................... 6

   Background ............................................................................................................................... 6

   Objective, Scope, and Methodology ..................................................................................... 7

   Prior Audit Coverage ............................................................................................................... 7

Appendix B: Monetary Impact .................................................................................................... 8

Appendix C: Management’s Comments ................................................................................... 9

Attachment A: Hay Group Report – FERS – December 4, 2012 ....................................... 10

Attachment B: Hay Group Report – FERS – October 12, 2012 ......................................... 21
Using U.S. Postal Service-Specific Assumptions for Calculating                   FT-MA-13-024
 the Federal Employees Retirement System Liability




Introduction

This report presents the results of our self-initiated review of Using U.S. Postal
Service-Specific Assumptions for Calculating the Federal Employees Retirement
System (FERS) Liability (Project Number 13BG015FT000). Our objective was to review
the assumptions used for the Postal Service’s FERS liability calculation and determine
what effect those assumptions may have on the FERS liability calculation estimate. See
Appendix A for additional information about this review.

The FERS is a pension program offered to employees of the Postal Service and federal
agencies. The Postal Service and its employees contribute to the pension program for
future benefits. The U.S. Office of Personnel Management (OPM) administers the FERS
and reported that as of September 30, 2012, the Postal Service had fully funded its
FERS liability and was overfunded by $3 billion. The U.S. Postal Service Office of
Inspector General (OIG) previously analyzed funding levels and provided comparisons
to the federal government, military, state governments, and corporations. Those
comparisons supported the Postal Service's funding of its pension liabilities at
105 percent.

Previous recommendations focused on legislation to refund the current surplus and
address future surpluses. In fiscal year (FY) 2013, the OIG issued two white papers
addressing the causes of the FERS surplus.1 The white papers focused on the
calculations behind the FERS liability. The OIG contracted with Hay Group, an
independent actuarial firm with expertise in Postal Service pension benefits, to identify
whether there were characteristics of Postal Service employees that distinguish them
from other federal employees. Using the research results, we analyzed the extent that
those characteristics contribute to the FERS surplus and impact the FERS liability.

Conclusion

Demographic differences between Postal Service and other federal employees
impacted the calculation of the FERS liability estimate. Specifically, Postal Service
employees have distinguishing employee characteristics (salary growth, termination,
retirement, disability, death, and life expectancy) that the OPM does not take into
consideration when applying actuarial assumptions. When calculating the FERS liability
using actuarial assumptions specific to the Postal Service, the liability is reduced by
$9.5 billion. Using assumptions that more closely align with Postal Service employees
causes the FERS liability to decrease from $90.5 billion to $81 billion, resulting in a total
surplus of $12.5 billion.

We believe the Postal Service’s FERS liability should be calculated using actuarial
assumptions specific to Postal Service employees. This approach provides a more

1
    See Prior Audit Coverage section for additional information.
                                                             1
Using U.S. Postal Service-Specific Assumptions for Calculating                                     FT-MA-13-024
 the Federal Employees Retirement System Liability


accurate estimate of retirement liabilities that are more likely to match future retirement
benefits actually paid.

Postal Service-Specific Assumptions

Characteristic and demographic differences between Postal Service employees and
other federal employees impact the projected FERS liability. Specifically:

   Postal Service employees have received smaller pay increases than assumed,
    general increases have been lower than predicted, and Postal Service employees
    have fewer steps in their pay scale than typical federal employees. Consequently,
    Postal Service employees reach the top step more quickly and salary growth
    ceases, effectively reducing the FERS liability.

   The demographic characteristics and career patterns of Postal Service employees
    are different from those of federal employees. Postal Service employees are less
    likely to leave their positions and withdraw from the FERS, less likely to take early
    retirement, yet more likely to die while employed or retire on disability. The overall
    effect reduces the FERS liability.

   The OPM projected improved mortality rates for federal employees, which
    increased the FERS liability. However, when considering only Postal Service
    employees, the mortality improvements for retired men ages 55 to 64 were
    significantly lower at 0.3 percent compared to 1.7 percent for the OPM’s projections.
    Overall, the mortality improvement for retired men was 1 percent for Postal Service
    employees compared to the OPM’s 2 percent projection. For retired females, the
    mortality improvement was slightly higher at 1.5 percent for Postal Service
    employees compared to the OPM’s 1.2 percent projection. The combined effect of
    these differences reduces the FERS liability.

We also identified other factors that impact the FERS liability but are not directly related
to employee characteristics or demographics.

   The FYs 2011 and 2012 freeze on general pay increases for federal employees
    contributed to a lower estimated FERS liability.2

   Actual investment returns on FERS assets have been lower than expected and have
    increased the FERS liability. In July 2012, the assumed investment rate for FERS
    assets was reduced from 5.75 percent to 5.25 percent. Interest rates have a
    dynamic effect on pension assets and projected liabilities. As interest rates rise,
    liabilities decrease. Conversely, when interest rates lower, liabilities increase.
    Recent slight rises in interest rates have bolstered corporate pension assets and
    reduced liabilities. This trend may also reduce the Postal Service’s FERS liability in
    the future, effectively escalating the current FERS surplus.

2
 Although the Postal Service’s pay systems are different from the federal government’s pay systems, this
assumption more closely matches the Postal Service’s pay increases than the previous actuarial assumption.



                                                        2
Using U.S. Postal Service-Specific Assumptions for Calculating                                         FT-MA-13-024
 the Federal Employees Retirement System Liability



To review the FERS liability, we analyzed salary growth, demographic experiences,3 life
expectancies, and investment returns using census data on Postal Service employees
and retirees provided by the OPM.4 We concluded that some characteristics and
demographics of Postal Service employees differ from those of federal employees and
these differences impact the FERS surplus. When calculating the FERS liability, the
OPM applies actuarial assumptions to Postal Service employees and federal employees
equally, without regard to the characteristic differences.

We recalculated the Postal Service’s FERS liability and found that the combined effect
of the characteristic and demographic differences (and other factors) reduce the Postal
Service’s FERS liability by $9.5 billion. Using the OPM’s assumptions, the FERS
surplus was $3 billion; while using Postal Service-specific assumptions, the FERS
surplus would be $12.5 billion.5 See Attachment A and Attachment B for further
information on the characteristic differences and adjusted calculations for FERS. See
Appendix B for monetary impact calculations.

The Postal Service’s employee population is large enough to support the development
of Postal Service-specific actuarial assumptions, which should be used to calculate the
Postal Service’s FERS liability. Adjusting actuarial assumptions for Postal Service
employees will provide a more accurate estimate of the Postal Service’s FERS liability.
Additionally, this approach would better align the estimated FERS liability with future
benefits paid to Postal Service FERS retirees.

Providing a more accurate estimate of the Postal Service’s FERS liability is important to
better understand the Postal Service’s financial position; however, a more accurate
estimate cannot prevent a FERS surplus. The Postal Service should not continue to
make FERS contributions that are unnecessary for future benefits. To control future
surpluses, the Postal Service’s contribution rates could be adjusted to reflect Postal
Service-specific actuarial assumptions. Under current law, solutions exist to address a
FERS unfunded liability, but not to return a FERS surplus.




3
  Demographic experiences include termination, retirement (including early retirement), disability, and death.
4
  Most recent census data is from September 30, 2011.
5
  The FERS surplus is based on a 12.7 percent future contribution rate, rounded from $12.48 billion . The Postal
Service estimates a $6 billion FERS surplus based on a reduced future contribution rate.



                                                          3
Using U.S. Postal Service-Specific Assumptions for Calculating                                    FT-MA-13-024
 the Federal Employees Retirement System Liability



Current Legislation

Congress has introduced several bills that address the Postal Service's retirement
liabilities:

   Postal Reform Act of 2013 (S. 1486), introduced on August 1, 2013, includes a
    provision to calculate the FERS liability by using demographic factors specific to
    Postal Service employees and economic assumptions regarding wage and salary
    growth that reflect specific past, and likely future, pay for Postal Service employees.
    The act provides an opportunity for the Postal Service to request funding surpluses
    up to $6 billion, which it could use to pay financial obligations. The act also provides
    the Postal Service the ability to bargain over the extent to which new employees will
    participate in the FERS.

   Postal Reform Act of 2013 (H.R. 2748), introduced on July 19, 2013,6 provides for
    the transfer of FERS surpluses to the Postal Service Retiree Health Benefits Fund.
    The act will use demographic and economic assumptions specific to Postal Service
    employees to calculate the FERS liability.

   Innovate to Deliver Act of 2013 (H.R. 2690), introduced on July 16, 2013, includes a
    provision to provide separate contributions to FERS for Postal Service employees
    and return FERS surpluses to the Postal Service.

   United States Postal Service Stabilization Act of 2013 (H.R. 961), introduced on
    March 5, 2013, provides for recalculation of the FERS liability using actuarial
    assumptions specific to the Postal Service and return current and future FERS
    surpluses.

   Postal Service Protection Act of 2013 (S.316), introduced on February 13, 2013,
    would return the FERS surplus to the Postal Service.

   Postal Service Protection Act of 2013 (H.R. 630), introduced on February 13, 2013,
    would require the recalculation of the FERS liability and restore retirement annuity
    obligations.

We will continue to monitor the legislative activity as part of our ongoing analysis.




6
  On July 24, 2013, the House Oversight and Government Reform Committee sent the bill to the House as a whole
for consideration.



                                                       4
Using U.S. Postal Service-Specific Assumptions for Calculating                   FT-MA-13-024
 the Federal Employees Retirement System Liability



Recommendation

We recommend the executive vice president, chief financial officer:

1. Coordinate with the Office of Personnel Management to modify the future Federal
   Employees Retirement System liability calculation to use actuarial assumptions
   specific to the Postal Service and, based on the results, take action as appropriate.

Management’s Comments

Management agreed with the finding, recommendation, and monetary impact.
Management stated they are ready to assist the OPM; however, management
understands that OPM’s position, under current law, is that OPM does not have the
authority to change the calculation of the Postal Service’s liability. Management will
continue to support pending legislation that would direct the OPM to use Postal
Service-specific actuarial assumptions in calculating the Postal Service’s liability, as well
as provide a mechanism for the return of the FERS surplus. See Appendix C for
management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
management’s corrective actions should resolve the issue identified in the report. The
OIG considers the recommendation significant; however, since management’s
corrective actions are ongoing and subject to legislative action, the OIG will close the
recommendation upon issuance of the report.




                                                    5
Using U.S. Postal Service-Specific Assumptions for Calculating                                         FT-MA-13-024
 the Federal Employees Retirement System Liability



                                 Appendix A: Additional Information

Background

The FERS is a pension program offered to employees of the Postal Service and federal
agencies. Career employees hired after December 31, 1983, generally participate in the
FERS.7 The OPM administers the Civil Service Retirement and Disability Fund to pay
FERS benefits to retirees.

The OPM calculates the FERS contribution rate based on a percentage of an
employee’s salary. The Postal Service contributes at the same rate as other federal
agencies. For most employees, the FERS contribution rate is 12.7 percent, 0.8 percent
of which is paid by the employee and 11.9 percent of which is paid by the Postal
Service. The FERS contribution rate for employees hired after January 1, 2013,
increased to 3.1 percent, while the Postal Service’s contribution rate decreased to
9.6 percent.

To account for future FERS benefits, a liability is estimated and disclosed in the
financial statements. The OPM calculates the FERS liability using actuarial assumptions
for salary growth, demographic experiences,8 life expectancies, and investment returns.
Changes in the economic climate or demographics can alter the liability from year to
year. Understandably, actuarial assumptions will never equal the actual experiences,
resulting in actuarial gains or losses. In recent years, lower interest rates and longer life
spans have increased the liability.

The OPM provides an annual estimate of the FERS assets and liability for the federal
government, including the Postal Service. The assets include actual contributions, plus
interest earned on those contributions, less benefits paid to retirees. The liability
includes projections of future benefits paid to retirees, less expected future
contributions. A surplus exists when the assets exceed the estimated liability.
Conversely, an unfunded liability exists when the estimated liability exceed the assets.

The OIG has previously offered a variety of recommendations to assist the Postal
Service in controlling expenses and decreasing future losses caused by funding the
FERS liability. The Postal Service continues to work with Congress to develop
legislation to address the comprehensive issues identified in our prior reports.




7
  Some employees hired prior to 1984 had the option to switch from the Civil Service Retirement System to the
FERS.
8
  Demographic experiences included termination, retirement (including early retirement), disability, and death.



                                                          6
Using U.S. Postal Service-Specific Assumptions for Calculating                FT-MA-13-024
 the Federal Employees Retirement System Liability



Objective, Scope, and Methodology

Our objective was to review the assumptions used for the Postal Service’s FERS liability
calculation and determine what effect those assumptions may have on the FERS
liability calculation estimate. To achieve our objective we:

   Reviewed prior OIG and Government Accountability Office reports.

   Contracted with Hay Group, an independent actuarial firm with expertise in the
    Postal Service’s FERS liability.

   Considered proposed legislation and current news articles.

We conducted this review from January through September 2013 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on September 11, 2013, and included their comments where appropriate.
We did not rely on computer-generated data to support the opinions and conclusions
presented in this report.

Prior Audit Coverage

Since 2010, we have issued a series of reports discussing the FERS liability and how
the Postal Service pays more than its fair share to the federal government:

   Causes of the Postal Service FERS Surplus – Update (Report Number
    RARC-WP-13-002, dated December 4, 2012).

   Causes of the Postal Service FERS Surplus (Report Number RARC-WP-13-001,
    dated October 16, 2012).

   Pension and Retiree Health Care Funding Levels (Report Number FT-MA-12-002,
    dated June 18, 2012).

   Leveraging Assets to Address Financial Obligations (Report Number FF-MA-11-118,
    dated July 12, 2011).

   Substantial Savings Available by Prefunding Pensions and Retirees’ Health Care at
    Benchmarked Levels (Report Number FT-MA-11-001, dated November 23, 2010).

   Summary of Substantial Overfunding in Postal Service Pension and Retiree Health
    Care Funds (Report Number FT-MA-10-002, dated September 30, 2010).




                                                    7
Using U.S. Postal Service-Specific Assumptions for Calculating                                  FT-MA-13-024
 the Federal Employees Retirement System Liability



                                      Appendix B: Monetary Impact

                                                                                        Amount
             Recommendation                    Impact Category                        (in billions)
                    1                       Funds Put to Better Use9                 $9,480,000,000

As of September 30, 2012, the OPM projected a $3 billion surplus for the Postal
Service’s FERS program. Using Postal Service-specific actuarial assumptions, the
surplus would be $12.48 billion, resulting in a $9.48 billion increase in the surplus.




9
    Funds that could be used more efficiently by implementing recommended actions.



                                                         8
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability


                            Appendix C: Management’s Comments




                                                    9
Using U.S. Postal Service-Specific Assumptions for Calculating          FT-MA-13-024
 the Federal Employees Retirement System Liability



             Attachment A: Hay Group Report – FERS – December 4, 2012




                                                    10
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    11
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    12
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    13
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    14
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    15
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    16
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    17
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    18
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    19
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    20
Using U.S. Postal Service-Specific Assumptions for Calculating           FT-MA-13-024
 the Federal Employees Retirement System Liability



              Attachment B: Hay Group Report – FERS – October 12, 2012




                                                    21
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    22
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    23
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    24
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    25
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    26
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    27
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    28
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    29
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    30
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    31
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    32
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    33
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    34
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    35
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    36
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    37
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    38
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    39
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    40
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    41
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    42
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    43
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    44
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    45
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    46
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    47
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    48
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    49
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    50
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    51
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    52
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    53
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    54
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    55
Using U.S. Postal Service-Specific Assumptions for Calculating   FT-MA-13-024
 the Federal Employees Retirement System Liability




                                                    56
